No. 19-151
31u tbe g)upretue Court of tbe &IWO i§tateo
UNITED STATES OF AMERICA,
Petitioner,
v.
DOMINIC LADALE WALTON,
Respondent,
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39 and 18 U.S.C. § 3006A(d)(7), Respondent asks leave to file
the accompanying Brief in Opposition without prepayment of costs and to proceed in
forma pauperis. Respondent was represented by counsel appointed under the
Criminal Justice Act, 18 U.S.C. § 3006A (b) and (c), both in the United States District
Court for the Northern District of Texas and on appeal to the United States Court of
Appeals for the Fifth Circuit.
Respectfully submitted on October , 2019.

C.

OEL AGE
el of R ord

Federal Public Defender's Office
Northern District of Texas
525 Griffin Street, Suite 629
Dallas, Texas 75202
(214) 767-2746
joel_page@fd.org

RECEIVED
OCT 2 3 2019
OFFICE OF THE
CLERK
SUPREINE COURT
U.S.

